RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 20-1088
David and Amy Carson, as Parents and Next Friends of O.C., et al.,
Petitioners,
v.
A. Pender Makin, in her Official Capacity as Commissioner of the Maine
Department of Education,
Respondent.
As required by Supreme Court Rule 33.1(h), I, Gordon D. Todd, certify that
the Brief of the Union of Orthodox Jewish Congregations of America as Amicus
Curiae in Support of Petitioners in the foregoing case contains 7,672 words,
excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 10, 2021.
/s/ Gordon D. Todd
GORDON D. TODD
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

